<html>
<title> - PREPARING FOR THE DIGITAL TELEVISION TRANSITION: WILL SENIORS BE LEFT IN THE DARK?</title>
<body><pre>[Senate Hearing 110-345]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-345
 
 PREPARING FOR THE DIGITAL TELEVISION TRANSITION: WILL SENIORS BE LEFT 
                              IN THE DARK?

=======================================================================


                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                           SEPTEMBER 19, 2007

                               __________

                            Serial No. 110-

         Printed for the use of the Special Committee on Aging



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                     U.S. GOVERNMENT PRINTING OFFICE

40-539 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                       SPECIAL COMMITTEE ON AGING

                     HERB KOHL, Wisconsin, Chairman
RON WYDEN, Oregon                    GORDON H. SMITH, Oregon
BLANCHE L. LINCOLN, Arkansas         RICHARD SHELBY, Alabama
EVAN BAYH, Indiana                   SUSAN COLLINS, Maine
THOMAS R. CARPER, Delaware           MEL MARTINEZ, Florida
BILL NELSON, Florida                 LARRY E. CRAIG, Idaho
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
KEN SALAZAR, Colorado                NORM COLEMAN, Minnesota
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           BOB CORKER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     ARLEN SPECTER, Pennsylvania
                     Debra Whitman, Staff Director
            Catherine Finley, Ranking Member Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Herb Kohl...........................     1
Statement of Senator Gordon H. Smith.............................    43

                                Panel I

Mark Goldstein, director of Physical Infrastructure, U.S. 
  Government Accountability Office, Washington, DC...............     4
Jonathan Adelstein, Commissioner, Federal Communications 
  Commission, Washington, DC.....................................    21
John Kneuer, assistant secretary, National Telecommunications and 
  Information Administration, U.S. Department of Commerce, 
  Washington, DC.................................................    29

                                Panel II

Nelda Barnett, board member, AARP, Owensboro, KY.................    54
Amina Fazlullah, staff attorney, U.S. Public Interest Research 
  Group, Washington, DC..........................................    69
Sandra Markwood, chief executive officer, National Association of 
  Area Agencies on Aging, Washington, DC.........................    77
Marcellus Alexander, executive vice president, National 
  Association of Broadcasters, Washington, DC....................    89

                                APPENDIX

Prepared Statement of Senator Norm Coleman.......................   105
Prepared Statement of Senator Susan Collins......................   105
Testimony of John Lawson, president and CEO, The Association of 
  Public Television Stations.....................................   107
Letter from Federal Communications Commission....................   118
Letter from the Secretary of Commerce............................   129
Letter from the Consumer Electronics Association.................   133
Letter from Circuit City.........................................   136
Letter from Radio Shack Corporation..............................   139
Letter from Best Buy.............................................   145
Letter from Consumer Electronics Retailers Coalition.............   148
Letter from Target...............................................   153
Letter from Walmart..............................................   154
Letter National Association of Broadcasters......................   156
Letter from Department of Health and Human Services, Assistant 
  Secretary for Aging............................................   161

                                 (iii)




 PREPARING FOR THE DIGITAL TELEVISION TRANSITION: WILL SENIORS BE LEFT 
                              IN THE DARK?

                              ----------- 



                     WEDNESDAY, SEPTEMBER 19, 2007

                                       U.S. Senate,
                                Special Committee on Aging,
                                                  Washington, DC.
    The Committee met, pursuant to notice, at 10:56 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Herb Kohl 
(chairman of the committee) presiding.
    Present: Senators Kohl, McCaskill, Smith, and Coleman.

        OPENING STATEMENT OF SENATOR HERB KOHL, CHAIRMAN

    The Chairman. Hello to one and all, and we would like to 
welcome you to this hearing and welcome our witnesses, and we 
thank you all for your participation. We are here today to 
bring attention to the unique needs and vulnerabilities of 
seniors as well as others across our country as the Nation 
transitions from free over-the-air analog TV to digital TV, 
commonly referred to as the DTV transition.
    Broadcasters will stop airing their signals in analog after 
February 17, 2009. Without proper preparation, millions of 
Americans may turn on their TVs on February 18, 2009, only to 
find themselves left in the dark, without access to critical 
weather updates, emergency alerts, news or entertainment 
programming.
    Some claim that the transition will be the most significant 
advancement in technology since the dawn of color TV. There 
will be many benefits, indeed. Most importantly, the transition 
will improve the lines of communication between our nation's 
first responders during emergencies. Unfortunately, this 
Committee's investigation has left us deeply concerned about 
how the DT transition will be implemented.
    As one of the witnesses will tell us today, we need an 
investment in consumer education akin to the multimillion 
dollar awareness campaign for Medicare Part D when it was 
unrolled. However, we must learn from that disastrous 
implementation of Medicare Part D that left millions of seniors 
confused and scrambling for help.
    The fact is that Congress mandated this transition. What 
Congress did not do is clearly determine who should oversee and 
take responsibility for this transition.
    Today, we will hear from GAO that there is little 
coordination between the government agencies that have 
jurisdiction over different aspects of this transition in order 
for Congress to provide adequate funding for a widespread 
awareness campaign about this transition. As of now, believe it 
or not, only $5 million has been set aside to educate 300 
million Americans about the impending transition over the next 
17 months. This, as you know, it a pittance compared, for 
example, to the $400 million being spent in Great Britain to 
educate 60 million citizens about their transition.
    Millions of American families may be impacted by this 
change. There are roughly 20 million households that rely 
exclusively on free over-the-air programming. Seniors are 
particularly vulnerable to slipping through the cracks of the 
transition. Not only are they more likely to rely on free over-
the-air analog TV signals, as shown in a study by the 
Association of Public Television Stations, but for many 
seniors, television is their only link to the outside world.
    Several of today's witnesses will tell us that seniors need 
targeted outreach, and, of course, I agree. This Committee's 
investigation has revealed that in spite of this need, little 
is being done to address the unique needs of seniors and 
provide entities in the aging network with the resources they 
need to ensure a successful transition.
    We are deeply concerned about how seniors and Americans, in 
general, will be able to find, install, and afford the 
converter boxes which will be necessary to allow their analog 
television sets to continue to work. The government's plan is 
to provide coupons worth $40 to partially offset the cost of 
converter boxes. However, the Committee's investigation has 
determined that this coupon program is fraught with confusion 
and is vulnerable to fraud and abuse.
    Seniors may not realize that the coupon will not pay for 
the entire cost of the converter box and be stuck with bills 
that they did not expect and cannot afford. Retailers may try 
to sell seniors more expensive TVs or converters than they 
need. One of today's witnesses will be detailing such 
misleading sales that are already occurring in electronic 
stores around the D.C. area.
    I will be introducing critical legislation to help address 
many of these concerns. The bill will establish and fund a 
public-private partnership that will be charged with making 
sure older Americans and their families are educated about the 
transition. The bill will also require commercial broadcasters 
to air public service announcements, require easily 
identifiable labels to be placed on coupon eligible converter 
boxes, and establish a toll-free number to answer questions and 
provide installation assistance.
    These are just a few of the common sense changes to help 
consumers and especially seniors weather the DTV transition. If 
properly planned for and implemented, this transition could be 
relatively seamless. Without adequate planning and 
coordination, many seniors will clearly be left in the dark. So 
we look forward to hearing from our witnesses today, and we 
will continue to work with each of you to identify the 
shortfalls of the DTV transition.
    [The prepared statement of Senator Kohl follows:]

                Prepared Statement of Senator Herb Kohl

    Good morning, I would like to welcome our witnesses and 
thank them for their participation. We are here today to bring 
attention to the unique needs and vulnerabilities of seniors as 
the nation transitions from free over-the-air analog TV to 
digital TV. Commonly referred to as the DTV transition, 
broadcasters will stop airing their signals in analog after 
February 17, 2009. Without proper preparation, millions of 
Americans may turn on their TVs on February 18, 2009 only to 
find themselves left in the dark without access to critical 
weather updates, emergency alerts, news or entertainment 
programming.
    Some claim that the transition will be the most significant 
advancement in technology since the dawn of color TV. There 
will be many benefits. Most importantly the transition will 
improve the lines of communication between our nation's first 
responders during emergencies. Unfortunately, my committee's 
investigation has left me deeply concerned about how the DTV 
transition will be implemented. As one of the witnesses will 
tell us today, we need an investment in consumer education akin 
to the multi-million dollar awareness campaign for Medicare 
Part D. However, we must learn from the disastrous 
implementation of Medicare Part D that left millions of seniors 
confused and scrambling for help.
    The fact is--Congress mandated this transition. What 
Congress did not do is clearly determine who should oversee and 
take responsibility for the transition. Today we will hear from 
GAO that there is little coordination between the government 
agencies that have jurisdiction over different aspects of the 
transition. Nor did Congress provide adequate funding for a 
widespread awareness campaign about the transition. As of now, 
only $5 million dollars have been set aside to educate 300 
million Americans about the impending transition over the next 
17 months. This is a pittance compared to the $400 million 
being spent in Great Britain to educate 60 million citizens 
about their own digital transition.
    Millions of American families may be impacted by this 
change--there are roughly 20 million households that rely 
exclusively on free over-the-air programming. Seniors are 
particularly vulnerable to slipping through the cracks of the 
transition. Not only are they more likely to rely on free over-
the-air analog TV signals, as shown in a study by the 
Association of Public Television Stations, but for many seniors 
television is their only link to the outside world. Several of 
today's witnesses will tell us that seniors need targeted 
outreach--and I agree. This committee's investigation has 
revealed that, in spite of this need, little is being done to 
address the unique needs of seniors and provide entities in the 
aging network with the resources they need to ensure 
asuccessful transition.
    I am deeply concerned with how seniors and Americans in 
general, will be able to find, install, and afford the 
converter boxes to allow their analog television sets to 
continue to work. The government's plan is to provide coupons 
worth $40 to partially offset the cost of converter boxes. 
However, the Committee's investigation has determined that this 
coupon program is fraught with confusion and vulnerable to 
fraud and abuse. Seniors may not realize that the coupon will 
not pay for the entire cost of the converter box and be stuck 
with bills they did not expect and cannot afford. Retailers may 
try to sell seniors more expensive TVs or converters than they 
need. One of today's witnesses will be detailing such 
misleading sales that are already occurring in electronics 
stores around the D.C. area.
    I will be introducing critical legislation to help address 
many of these concerns. The bill will establish and fund a 
public-private partnership that will be charged with making 
sure older Americans and their families are educated about the 
transition. The bill will also require commercial broadcasters 
to air public service announcements, require easily-
identifiable labels to be placed on coupon-eligible converter 
boxes, and establish a toll-free number to answer questions and 
provide installation assistance. These are just a few of the 
common sense changes to help consumers, and especially seniors, 
weather the DTV transition.
    If properly planned for and implemented, the DTV transition 
could be relatively seamless. Without adequate planning and 
coordination, many seniors will be left in the dark.
    I look forward to hearing from our witnesses today and we 
will continue to work with each of you to identify and address 
the shortfalls of the DTV transition.

    We will turn now to our first panel. Our first witness will 
be Mark Goldstein. Mr. Goldstein is the director of physical 
infrastructure issues at the U.S. Government Accountability 
Office. Mr. Goldstein oversees the agency's audits and 
investigations in the areas of Federal property and 
telecommunications. Mr. Goldstein has also served as a deputy 
executive director and chief of staff to the D.C. Financial 
Control Board and also is a senior staff member of the Senate 
Committee on Governmental Affairs.
    After Mr. Goldstein, we will hear from Jonathan Adelstein, 
a commissioner at the Federal Communications Commission. 
Previously, Mr. Adelstein worked extensively on 
telecommunication issues as a senior legislative aide to former 
majority leader Tom Daschle and also as a staffer for the 
Special Committee on Aging.
    Our final witness on the first panel will be John Kneuer, 
assistant secretary for the U.S. Department of Commerce's 
National Telecommunications and Information Administration. In 
directing the NTIA, Mr. Kneuer oversees the association's 
telecommunications and information policy initiatives.
    We welcome you, gentlemen. We would be pleased to hear your 
testimony.
    Mr. Goldstein, you may speak first.

       STATEMENT OF MARK GOLDSTEIN, DIRECTOR OF PHYSICAL 
    INFRASTRUCTURE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
                         WASHINGTON, DC

    Mr. Goldstein. Thank you very much, Mr. Chairman, and good 
morning. I am pleased to be here today to report on our work 
and the progress made in consumer education efforts for the 
digital television transition.
    We are currently finalizing a report on initial public and 
private sector efforts underway to implement the transition. As 
such, the findings that I am reporting today are preliminary in 
nature and principally related to consumer education and 
outreach programs.
    The primary goal of the DTV transition is for the Federal 
Government to reclaim spectrum that broadcasters currently use 
to provide analog television signals. In all, the DTV 
transition will free up 108 megahertz of spectrum, including a 
portion of the spectrum that will be reallocated for public 
safety purposes, which became a higher priority following the 
terrorist attacks of September 11. FCC will auction the 
remaining spectrum for commercial purposes, with the resulting 
proceeds allocated for, among other things, reducing the 
Federal deficit.
    The Digital Television Transition and Public Safety Act of 
2005 mandates that analog television broadcast signals cease on 
February 17, 2009. After that date, households that had 
previously viewed television on analog sets solely through the 
reception of over-the-air signals must take action to ensure 
that they can view digital broadcast signals.
    The act also directed the NTIA to establish a $1.5 billion 
program through which households can obtain coupons to assist 
in the purchase of digital-to-analog converter boxes that will 
enable people to view the digital signals. NTIA has begun to 
implement the converter box subsidy program, and in August 
2007, it selected IBM Corporation to administer the program.
    While there are many steps necessary to successfully 
complete the DTV transition, my testimony today will focus on 
consumer education and awareness. In particular, I will 
discuss, one, consumer education efforts currently underway; 
two, education efforts and programs being planned; three, the 
difficulties that might arise in the implementation of such 
programs; and, four, ongoing work on DTV consumer education and 
awareness that the GAO will undertake in the coming months.
    My statement today includes the following major points:
    No. 1, several Federal and private stakeholders have 
already begun consumer education campaigns with both 
independent and coordinated efforts underway. FCC and NTIA have 
been involved in consumer education and awareness programs, and 
some private sector organizations are voluntarily taking the 
lead on outreach efforts.
    For example, FCC has launched a Web site, DTV.gov, and NTIA 
has begun outreach efforts to some groups most likely to lose 
all television service as a result of the transition, including 
at-risk groups such as the elderly. Private, public, and 
nonprofit groups have joined together to form the DTV 
Transition Coalition to coordinate on consumer education 
efforts and messages.
    Second, with respect to any upcoming consumer education 
planning, widespread and comprehensive efforts have yet to be 
implemented. However, additional efforts are currently being 
planned both for the general population and at-risk groups. 
FCC, NTIA, and private sector stakeholders have plans to 
further educate consumers as the transition nears.
    FCC recently solicited comments on proposed consumer 
education programs, including potentially requiring television 
broadcasters to conduct on-air consumer education efforts. The 
proposals also include potential requirements for industry to 
report on the status of their specific consumer outreach 
efforts, including those efforts targeted to at-risk groups.
    NTIA's contractor is also developing a consumer education 
component for the converter box subsidy program. Additionally, 
the DTV Transition Coalition and various industry trade 
associations are planning information and education campaigns, 
and some groups are planning to broadcast public service 
announcements.
    Three, despite the efforts currently underway and those 
being planned, difficulties remain in the implementation of 
consumer education programs. While private sector organizations 
are conducting outreach efforts, these actions are voluntary 
and, therefore, the government cannot be assured of the extent, 
timing, or actual messages included in private sector efforts.
    Strategic communications experts from industry, government, 
and academia identified for us potential challenges to a 
consumer education campaign, including, (1), prioritizing 
limited resources to target the right audience for an adequate 
period of time; (2), educating consumers who do not necessarily 
need to take action; and, (3), reaching underserved 
populations, such as the elderly and disabled; and, finally, 
aligning stakeholders to form a consistent, coordinated 
message.
    Finally, in our ongoing work related to the DTV transition, 
we will report on the progress of consumer education and 
awareness about the DTV transition over the next 17 months. For 
example, we will continue to monitor consumer education 
programs, and we plan to conduct a series of consumer surveys 
throughout the year prior to the transition date. In addition, 
throughout the transition process, we will continue to assess 
government and industry consumer education efforts and analyze 
these efforts compared with key practices for consumer 
outreach.
    Mr. Chairman, this concludes my summary of the prepared 
statement, and I would be happy to respond to any questions 
that you have. Thank you.
    [The prepared statement of Mr. Goldstein follows:]
    [GRAPHIC] [TIFF OMITTED] 40539.001
    
    [GRAPHIC] [TIFF OMITTED] 40539.002
    
    [GRAPHIC] [TIFF OMITTED] 40539.003
    
    [GRAPHIC] [TIFF OMITTED] 40539.004
    
    [GRAPHIC] [TIFF OMITTED] 40539.005
    
    [GRAPHIC] [TIFF OMITTED] 40539.006
    
    [GRAPHIC] [TIFF OMITTED] 40539.007
    
    [GRAPHIC] [TIFF OMITTED] 40539.008
    
    [GRAPHIC] [TIFF OMITTED] 40539.009
    
    [GRAPHIC] [TIFF OMITTED] 40539.010
    
    [GRAPHIC] [TIFF OMITTED] 40539.011
    
    [GRAPHIC] [TIFF OMITTED] 40539.012
    
    [GRAPHIC] [TIFF OMITTED] 40539.013
    
    [GRAPHIC] [TIFF OMITTED] 40539.014
    
    The Chairman. Thank you very much, Mr. Goldstein.
    Mr. Adelstein

    STATEMENT OF JONATHAN ADELSTEIN, COMMISSIONER, FEDERAL 
           COMMUNICATIONS COMMISSION, WASHINGTON, DC

    Mr. Adelstein. Thank you, Mr. Chairman, and thank you so 
much for inviting me to discuss the impact of the DTV 
transition on seniors. It is a special honor for me to be here, 
because, as you noted, I did spend 6 years as a staff member on 
this Committee under then Chairman David Pryor. So you know 
that issues of concern to seniors and to this Committee are at 
the top of my list.
    I will focus today on how the Federal Government can 
establish a coherent, coordinated response to educate older 
Americans about the DTV transition. We all need to do a lot 
more outreach to prepare our seniors. That includes the FCC; 
other Federal agencies, such as NTIA and the Administration on 
Aging; the broadcasting, cable, and consumer electronics 
industries; State, Local, and Tribal Governments; and consumer 
advocacy groups and community-based providers. We all need to 
do this together.
    The consequences of failing to mount a more aggressive 
outreach campaign would be a disaster, so I applaud your 
leadership and the leadership of the Aging Committee here in 
focusing our attention on the need to activate now and focusing 
on the particular needs of seniors.
    I am just one of five commissioners on the FCC, but I have 
really closely followed the DTV consumer outreach efforts that 
our agency is making. We have an excellent staff, and they are 
willing, capable, and ready to execute whatever plans they are 
asked to implement.
    Unfortunately, the FCC's DTV outreach and education efforts 
to date have been lackluster at best. It isn't that there is a 
lack of good ideas about how to reach older Americans. Rather, 
there has been a lack of leadership, focus, and resources for 
putting these ideas into action.
    The government hasn't established a command and control 
structure that is responsible to coordinate the national DTV 
transition effort. We need to vet, prioritize, and implement 
good ideas from both the public and private sectors into a 
comprehensive, coherent, and coordinated plan.
    Only the government can play the role of referee to keep 
industry representatives with sometimes conflicting 
priorities--to coordinate them to send a clear message that 
serves all consumers and isn't skewed by their own self-
interests. I am concerned that we haven't responded with the 
urgency required by the potential magnitude of this huge change 
in the way Americans view their TV, particularly over-the-air 
viewers, a disproportionate number of whom are elderly and on 
fixed incomes.
    This isn't just about entertainment, as you noted. It is 
about how seniors get their news, their public safety 
information, and their emergency information. Now, what is the 
topic today? U.S. PIRG is going to testify later today that 
they did a spot check, and they found that clerks at leading TV 
retailers don't know enough themselves to help consumers get 
the information they need. Now, if these young, tech-savvy 
workers don't get it, imagine the challenges that a lot of 
seniors face.
    If we fail to reach everyone affected, I fear that 
government and business alike will face a tsunami of complaints 
when analog over-the-air signals stop just 517 days from now. 
No senior should face a blank TV screen when they wake up on 
February 18, 2009, and turn on any set in their home.
    We need to implement a transition plan that is comparable 
to our response to the Y2K computer threat and one that is 
commensurate to the Federal Government's multimillion dollar 
campaign to inform seniors of the new prescription drug 
benefit. As you noted, the drug benefit faced massive confusion 
after $65 million was spent in 1 year alone, and look what we 
are trying to spend on this DTV transition. So we need to build 
on the successes and failures of those efforts.
    Commissioner Copps, my colleague, and I managed to increase 
our fiscal year 2009 budget request to OMB by twenty-fold, a 
huge increase from our previous request. Even though these 
resources are urgently needed, it is not solely a matter of 
money.
    As you can see from the prescription drug plan, throwing 
money at it obviously didn't do the trick. It is a matter of 
coordination, it is a matter of priorities and it is a matter 
of leadership.
    First, we need to create a Federal DTV task force 
immediately. The FCC and NTIA need to spearhead a multi-agency 
task force to develop benchmarks and timelines. It needs 
resources and staff, and it should be accountable to Congress.
    The task force would be able to coordinate with public and 
private partners, leverage existing resources, and develop a 
single unified Federal message. In addition to coordinating 
government efforts, it can convene joint meetings with the 
private sector DTV coalition to ensure a coherent, consistent 
message. Like any advertising campaign, you want to hit 
consumers with it over and over again, and you want it to be 
consistent, in order for it to sink in.
    With a unified message developed, the task force can work 
with other agencies, such as the Administration on Aging, 
Social Security Administration, HHS, and AmeriCorp, and can 
help seniors to integrate these DTV educational efforts. At 
every point of contact with consumers, there ought to be notice 
made of this transition.
    All Federal agency websites and correspondence or mailings 
to citizens' homes, such as Social Security mailers or Meals on 
Wheels deliveries, are golden opportunities to inform consumers 
about the transition, including the converter box program and 
the analog cutoff date, in a comprehensive way. The task force 
needs to launch a coordinated grassroots information 
distribution campaign, working with State, Local, and Tribal 
Governments, private sector partners, and community-based 
providers. The FCC also needs to establish a dedicated hotline, 
as you suggested, for consumer information. This is especially 
important for seniors, many of whom lack access to the 
Internet.
    I am confident that with further direction from Congress 
and this Committee, the FCC and other Federal agencies and all 
interested stakeholders can develop and implement a 
coordinated, comprehensive, and coherent consumer awareness and 
education campaign. There is still time, but given how long we 
have waited already, there is not a minute to waste.
    Thank you for inviting me to testify, and I am happy to 
answer any questions you might have.
    [The prepared statement of Mr. Adelstein follows:]
    [GRAPHIC] [TIFF OMITTED] 40539.015
    
    [GRAPHIC] [TIFF OMITTED] 40539.016
    
    [GRAPHIC] [TIFF OMITTED] 40539.017
    
    [GRAPHIC] [TIFF OMITTED] 40539.018
    
    [GRAPHIC] [TIFF OMITTED] 40539.019
    
    The Chairman. Thank you very much, Mr. Adelstein.
    Mr. Kneuer.

    STATEMENT OF JOHN KNEUER, ASSISTANT SECRETARY, NATIONAL 
    TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION, U.S. 
             DEPARTMENT OF COMMERCE, WASHINGTON, DC

    Mr. Kneuer. Thank you, Mr. Chairman, Senator McCaskill. 
Thank you for this opportunity to testify before you today.
    As you know, NTIA's responsibility has expanded 
considerably with the enactment of the Deficit Reduction Act of 
2005. Specifically, the act directed NTIA to administer a $1.5 
billion digital-to-analog converter box coupon program, part of 
the subject of today's hearing.
    Under the digital-to-analog converter box coupon program, 
eligible U.S. households may obtain up to two coupons of $40 
each to be applied toward the purchase of digital-to-analog 
converter boxes that will convert digital broadcast signals for 
display on analog television sets. The act authorizes NTIA to 
use up to $990 million to carry out the program, including up 
to $100 million for program administration, of which $5 million 
can be used for consumer education. It also authorizes an 
additional $510 million in contingent funding to be available 
upon 60 days notice to the Congress.
    NTIA has made substantial progress in fulfilling its 
requirements under the law. On August 17, we awarded the 
contract to IBM to provide end-to-end services to implement and 
administer the coupon program. IBM, together with three 
partners, will manage three broad functional aspects of the 
coupon program: systems processing, financial processing and 
consumer education and communications.
    Consumer education must be conducted at an optimal moment 
to afford consumers sufficient time to prepare for the 
transition. Consumers will need to know the options available 
to them to participate in the transition.
    For example, consumers who receive cable, satellite or 
other pay television services to view television will not need 
over-the-air converter boxes. Likewise, consumers that have 
televisions equipped with digital receivers will not need a 
converter box. By contrast, households that wish to continue 
viewing over-the-air television with an analog television 
receiver must be educated about the need to obtain a converter 
box. Moreover, consumers who acquire converter boxes will also 
need to be aware that there is financial assistance available 
to them to obtain these boxes.
    We recognize that we must pay particular attention to 
certain communities to ensure that they are aware of the 
digital transition and are prepared to adapt to the required 
changes. We have identified five target groups for our consumer 
education efforts: seniors and older Americans, the 
economically disadvantaged, rural residents, people with 
disabilities and minorities.
    As you know, America's seniors make up a large percentage 
of consumers served by governmental, social service, commercial 
and nonprofit organizations. Accordingly, we have been 
leveraging our relationships with these organizations to reach 
senior constituencies that they serve.
    For example, we are working very closely with the 
Administration on Aging of the U.S. Department of Health and 
Human Services. We are also collaborating with the AARP, who 
will testify later, to ensure that the coupon program is 
highlighted in its publications and online newsletters, which 
reach more than 22 million subscribers, in both English and 
Spanish. Earlier this month, we participated in the AARP member 
convention in Boston, and the agency has been coordinating very 
closely with AARP for almost a year.
    We have also reached out to establish partnerships with 
other organizations, including SeniorNet, an organization that 
supports about 200 senior learning centers across the country; 
the National Caucus and Center of Black Aged, Inc.; and the 
National Indian Council on Aging. At the end of October, NTIA 
will participate in the National Hispanic Council on Aging 
conference and distribute Spanish language materials about the 
transition.
    In addition to our efforts, over 120 business, trade and 
industry groups, as well as grassroots and membership 
organizations that share an interest in a smooth transition, 
came together earlier this year to charter the Digital 
Television Transition Coalition. The coalition will use 
marketing and public education strategies, including paid and 
earned media placements, to distribute consistent, unified, and 
accurate information about the transition. NTIA has been 
working with the coalition since its inception on coordinating 
our messages.
    We will also continue to participate in meetings and 
conferences over the next 2 years to spread the word about the 
transition and the coupon program. We will be hosting our 
second public meeting next week on September 25 to discuss 
progress in educating the public about the coupon program. This 
public meeting will focus on our partnerships in the digital 
transition and will feature two CEO level panels from the 
impacted industries, including participation from the AARP.
    The public meeting will also include an exposition in the 
Department of Commerce lobby that will include displays from 
over a dozen companies and organizations featuring products and 
services to enable consumers to make a smooth digital 
transition. We certainly invite you and your staff to attend 
this meeting and welcome any suggestions or concerns that you 
have about the coupon program. I will note that the very next 
day, the FCC will be holding a similar program, and NTIA will 
be participating in that as well.
    In conclusion, I want to thank the Committee for the 
opportunity, and I am happy to answer any of your questions.
    [The prepared statement of Mr. Kneuer follows.]
    [GRAPHIC] [TIFF OMITTED] 40539.020
    
    [GRAPHIC] [TIFF OMITTED] 40539.021
    
    [GRAPHIC] [TIFF OMITTED] 40539.022
    
    [GRAPHIC] [TIFF OMITTED] 40539.023
    
    [GRAPHIC] [TIFF OMITTED] 40539.024
    
    [GRAPHIC] [TIFF OMITTED] 40539.025
    
    [GRAPHIC] [TIFF OMITTED] 40539.026
    
    [GRAPHIC] [TIFF OMITTED] 40539.027
    
    [GRAPHIC] [TIFF OMITTED] 40539.028
    
    [GRAPHIC] [TIFF OMITTED] 40539.029
    
    The Chairman. Thank you very much, Mr. Kneuer.
    Mr. Goldstein, it seems that there is a lot of work based 
on your testimony as well as others, a lot of work that the 
public sector and the private sector have yet to do in the 
coming months to make the digital transition happen. I think we 
are all aware of that, and that is why we are here today.
    In your opinion, is this work being sufficiently 
coordinated, and do we have someone in charge of this whole 
transition?
    Mr. Goldstein. Mr. Chairman, I think I would answer your 
question in two parts. First, I would say that it is pretty 
clear to us, based on the initial work we have done, that there 
is no one in charge.
    The FCC has the broadest telecommunications 
responsibilities in the government. They have the 
responsibility to compel broadcasters to do what is necessary. 
NTIA, with its general responsibilities for electronic 
commerce, is really embarking on kind of a new road for it.
    So, truly, it seems to us that the bulk of any oversight 
responsibility, while coordinated between those two agencies, 
ought to fall probably to FCC. Yet there seems to be confusion 
even on the part of the FCC between the Chairman and some other 
commissioners regarding what its responsibilities are for the 
transition in various public documents in recent months. So we 
are concerned about this.
    It is clear, despite the important efforts that are going 
on now and those that are planned, that without greater 
coordination and someone being in charge, the challenges are 
likely to rise, and the chances of success are likely to 
diminish some.
    Second, because there isn't really anyone in charge, we 
found in our work that there was no comprehensive planning 
effort, no overall performance management structure or risk 
management program in place. Overall, there are components here 
and there, and NTIA has some plans, but nothing broadly for the 
transition or even the consumer education part of the 
transition that will help ensure that the transition meets its 
goals and its milestones.
    There are, obviously, a lot of things going on out there, 
but no one is really trying to assess what risks might show up, 
what kind of gaps might be there, what kind of problems might 
exist, and how to best mitigate them. We are only in sort of a 
startup phase, as you know, but we have already found issues of 
confusion and, potentially, even conflict between Federal 
Government Web sites which have information on them which 
appear to potentially conflict, and other kinds of information 
gaps that exist that people really need to know about, for 
instance, regarding the converter box program.
    They are available, and the Web sites indicate that they 
are available starting in January. However, that is really a 
test phase. They are not really generally available until 
April. But there is almost no information that would let 
seniors or other Americans know that. So there are a lot of 
coordination and planning issues that, even here in the startup 
phase, may bedevil the program.
    The Chairman. Thank you.
    Commissioner Adelstein, you recommended the establishment 
of a Federal task force that would work in partnership with the 
private sector and consumer groups to develop a coordinated 
approach to educating seniors and the public. As you are aware, 
we are developing legislation that incorporates your 
recommendations, and we look forward to working with you, as 
well as other stakeholders, on this issue.
    Your testimony called the current public education efforts 
at the FCC, quote, ``lackluster.'' So tell us, what are your 
predictions for February 18, 2009, if, in fact, nothing is done 
to increase consumer awareness?
    Mr. Adelstein. Well, I am very concerned that if we don't 
do a better job of planning--and we just heard from the GAO 
that we are not doing a good job, they said that there isn't 
the proper leadership, and there isn't the proper focus--and 
because of that we are going to have one of the biggest 
outrages that this Congress has ever seen. You will be 
inundated with letters and phone calls from angry constituents, 
all of the Federal agencies will be inundated--as well as the 
cable companies, and the broadcasters. It will be a really 
difficult day in the history of American broadcasting if we 
don't turn this around, and I am hopeful that we can.
    What we have here is a warning, and we have 17 months left, 
so there is time to turn this around. But we must have more 
leadership. We have to do more planning, but what is the plan 
now? You can't find out what the plan is. We are kind of doing 
this ad hoc as we go. What are the benchmarks by which we need 
to meet to get to the point where everybody in this country is 
going to be properly educated? We don't have any in place.
    What is the industry doing? I am not 100 percent sure. We 
hear different things. They keep changing their mind about what 
their dates are. They don't have a coordinated message among 
themselves. Even the Federal Government, as we just heard from 
the General Accounting Office, doesn't have a coordinated 
message within itself, and we are also not reaching out to 
coordinate the message among industry.
    Now, we can't force the Industry on what to say, but it 
would be nice if we looked at some of these PSAs in advance and 
gave them some suggestions, because they each have their own 
self-interests at stake here, and they have their own pecuniary 
agendas. Our agendas need to focus on the public but what are 
we doing to make sure the public interest is served, that the 
broader message is consistent?
    As I said, it is like an ad campaign. You want it to be 
simple, direct, clear and consistent, and repeated so it sinks 
in to the American consciousness. With all these different 
messages coming from all these different places, the government 
not coordinating with each other, the industry not coordinating 
with each other and the FCC, not coordinating all together, we 
are not going to have the kind of level of understanding among 
the public that we are going to need to avoid some of the 
consequences I laid out.
    The Chairman. Thank you.
    Mr. Kneuer, in your testimony, you note that any eligible 
U.S. household can request up to two coupons to help reduce the 
cost of a digital-to-TV converter box. Your agency uses the 
standard census definition of a household, which leaves out 
individuals living in institutions.
    Will the millions of elderly and disabled residents of 
nursing homes and assisted living facilities across the Nation 
also be eligible to obtain a coupon if they should wish to have 
one? Can you ensure that these residents do not lose their 
window to the outside world?
    Mr. Kneuer. We did rely on the census definition of 
households, and persons living in institutions are not eligible 
as households, per se. That is why part of our education effort 
is to reach out and work with the communities that do work with 
people in those facilities to make sure that they are aware of 
the transition as it is coming, and that there is nothing that 
would prevent a caregiver or a relative from redeeming a 
coupon, purchasing a box, and bringing it to somebody who lives 
in one of those institutions.
    The Chairman. Thank you. Well, we applaud you for including 
seniors in your list of target groups for consumer education 
efforts and for reaching out to the appropriate actors, such as 
the Administration on Aging. However, there is concern about 
potential problems that can occur at local retailers throughout 
the course of the transition.
    Tell us what your agency will do to ensure that retailers 
properly educate their sales associates about the coupon 
program and mitigate the problems of up-selling?
    Mr. Kneuer. One of the requirements that we put in our 
program as we sought a vendor to fulfill the coupon redemption 
and the rest was that they give us proposals on how they would 
work with retailers and educate retailers and bring training to 
retailers. Retailers also need to be registered under the 
program to make sure that we have got real, sophisticated 
retail entities taking part. You have to have been in the 
business for a period of time, have education materials in 
place.
    It is a part of what we are requesting IBM to do with their 
partners--is to bring training to the retailers, to reach out, 
not just to--the general information for everyone, but also 
that information that can reach the five groups that we have 
identified as those most in need. We have got that down to a 
level of granularity, even including large type print for 
seniors, as well as foreign language material for people who 
may not have English as a primary language.
    The Chairman. Thank you.
    Well, we have our distinguished co-Chairman of this 
Committee here today, Senator Smith, and we will ask him to 
make his remarks and ask his questions followed by Senator 
McCaskill and then Senator Coleman.
    Senator Smith.

   OPENING STATEMENT OF SENATOR GORDON SMITH, RANKING MEMBER

    Senator Smith. Thank you, Mr. Chairman. In the interest of 
time, if I may, I will put my statement in the record.
    [The prepared statement of Senator Smith follows:]

               Prepared Statement of Senator Gordon Smith

    Thank you Mr. Chairman.
    Today, we are about a year and a half away from one of the 
largest transitions in United States broadcasting history.
    Already advertisements are popping up on television sets 
alerting consumers about the upcoming digital TV or DTV 
transition. ``Are You Ready?'' they ask viewers, encouraging 
them to ensure their TVs will not go dark on February 17, 2009. 
I have the same question for the federal government, "Are We 
Ready?"
    In the Aging Committee we have the opportunity and 
responsibility to look at the digital transition with a narrow 
focus on our seniors--those most likely to be impacted. The 
transition is a massive undertaking and its success depends on 
significant efforts from both the public and private sectors.
    I am encouraged by recent efforts in both the public and 
private sector to help facilitate the DTV transition. 
Specifically, I applaud the NTIA for their selection of a 
vendor to implement the converter box coupon program and the 
cable industry's announcement of a $200 million advertising 
campaign to inform their customers of the DTV transition.
    We must ensure that the necessary steps are taken to 
guarantee a smooth transition without fraud or interrupted TV 
service for elderly households. It is imperative that seniors 
receive accurate information on the transition in a format that 
is easy to understand. I also want to ensure that the federal 
government provides the appropriate resources, including 
funding, to inform and assist our nation's seniors on issues 
related to the transition. In doing so, it is imperative that 
all stakeholders work with the Aging Network.
    The Aging Network is a comprehensive system that includes 
655 area agencies on aging, 29,000 local service provider 
organizations and hundreds of thousands of volunteers who 
interact with seniors on a regular basis in communities 
throughout our country. Many of you are familiar with their 
work with various programs, including Meals on Wheels that 
provides meal services to homebound seniors.
    The Aging Network is one of the primary resources to 
communicate information and offer services to the elderly 
community related to many government programs and issues 
impacting them. I anticipate the Network will be integral to 
the success of the DTV transition for this segment of our 
population. I look forward to hearing how each of the 
stakeholders here today plans to work with the Aging Network to 
ensure seniors are ready for the transition.
    As part of the education campaign, we must make a concerted 
effort to protect seniors from potential fraud. There is no 
shortage of swindlers willing to capitalize on the confusion 
and fears that could surround the DTV transition. With seniors 
as their main prey, I guarantee that these bad actors are 
already scheming to dupe seniors into the purchase of unneeded 
televisions or converter boxes. I look forward to hearing from 
our witnesses on how they will proactively work to prevent this 
type to fraud.
    I welcome our witnesses and look forward to hearing their 
testimony.
    Thank you Mr. Chairman.

    Senator Smith. It does reflect, I think, the ongoing 
concern that this Committee and many other Senate Committees--
specifically the Commerce Committee, which Senator McCaskill 
and I serve on--are focusing on this. So you may feel like you 
are being bombarded on this issue. Obviously, the reason is 
because few things get the attention of our constituents more 
than their functioning TV sets, and we want to accelerate and 
facilitate this transition so it is as seamless as possible.
    We really do need an education campaign that is simple, 
that is multifaceted, and that is repetitive so as to make sure 
that seniors are not victimized by those who would sell them a 
converter box that they don't need. We don't want them to have 
to buy it, and we want to make sure they get what they need, 
and that they get it in a timely way.
    But I have a specific question for the FCC and the NTIA, 
and it relates to the aging network, which consists of the 
Administration on Aging, 56 State units, 655 area agencies on 
aging, 243 tribal organizations, and 29,000 local service 
provider organizations. As I understand it, this network is not 
being utilized, and it is an army of willing workers that is 
authorized under the Older Americans Act and a resource for 
your agencies, gentlemen, that, if you are not going to use it, 
I need to encourage it and plug you into it as best we can. 
Because when you look at Meals on Wheels and the people who are 
going into the homes, these are the people who enabled us to 
get through a very difficult Medicare Part D problem, or 
implementation, much more successfully and more quickly than 
many thought possible. It still wasn't perfect, but it would 
have been much worse had this army on the ground not been 
available.
    It does seem to me that we are missing the boat, as I 
understand it, because this incredible resource is not being 
utilized by your agencies. Is that correct? What can you do to 
do differently?
    Mr. Adelstein. I think that is an important point. I think 
we do need to work more closely. Now, our staff has reached out 
to AOA, and it has some positive, very early stage ideas 
underway. One State, for example, we are going to closely 
coordinate with, but we have 49 others that we are not yet 
working with, so I think we need to do a lot more.
    One of the ideas that I think is so important is that we 
have a Federal level task force or working group that involves 
all the different Federal agencies meeting at the highest 
levels to discuss what the priorities of the agencies are. This 
task force should, specifically, really focus very heavily on 
bringing in AOA and its leadership and also working with all 
the different state offices on aging to bring those resources 
to bear.
    For example, working with Meals on Wheels to help spread 
the word. One of the ideas is that they will put on the tray a 
little flyer about the DTV transition that is written in a very 
simple way, and all those folks will get that information. 
There are so many creative ideas like that that are out there, 
but how are we going to get them implemented? How are we going 
to do it in time? Are we coordinating enough with AOA?
    I am afraid to say, as you know, our efforts are very 
nascent. We are just beginning to reach out, which is 
important, but we need to be doing a lot more--I mean, not just 
working with AOA, but other Federal agencies, like SSA, which 
has mailers that go out to all of our seniors. The Federal 
Government ought to be coordinating with all the different 
resources we have to make sure this message gets out through 
all the different mechanisms we have, and I think AOA is one of 
the best and most important.
    Senator Smith. Well, please take this hearing as a friendly 
prod. I hope you will utilize this resource.
    Mr. Kneuer. Senator, we are working very, very closely with 
AOA, as well as SeniorNet and others. They have been--from the 
outset, when we knew we had this responsibility, we looked out 
across the executive branch and across the Administration where 
there were resources. I mean, it is clear that senior citizens 
are the largest consumers of these governmental services, and 
there are a host of different executive branch agencies that 
provide those services.
    AOA is one of the first ones that we have been working 
with. We are working closely with them, as our vendor 
coordinates the consumer outreach message, having that 
integrate into the AOA services is exactly what we plan to do.
    Senator Smith. Mr. Goldstein, one of the concerns that I 
have is how effective the information is that we are giving to 
seniors. Is it simple? Is it clear? Can senior citizens follow 
it? I wonder from your study that you did recently how 
effective--or how we can improve our brochures and our 
government Web sites so that this can be understood by folks 
out there.
    Mr. Goldstein. A couple of points, Senator. One is I think 
there does need to be clear and more consistent messages, and 
we have talked a little bit about that. We do see some 
inconsistencies and some gaps in the messages that are being 
provided today.
    We sat down with a panel of experts in strategic 
communications not long ago, and we talked to them about 
specific things that they recommended that need to be part of 
any campaign. They included prioritizing limited resources so 
that when you don't have a lot of time and you don't have a lot 
of money, you are very, very sure of who you are reaching out 
to and at what point. So you have to make decisions between 
small and large audiences and long and short periods of time in 
order to make sure that your message is heard.
    You need to--and we are quite concerned about this 
possibility--educate consumers who don't need to take action. 
That doesn't seem to be really part of what has been developed 
much so far, and there may be many, many seniors who are 
confused and may go buy a set top box who don't need to do so 
at all. So there is potentially some confusion at that point.
    Obviously, reaching the underserved and more vulnerable 
parts of the population is key, and NTIA, particularly, has an 
outreach program designed to do that. But, obviously, we have a 
lot of time and a lot of message still to get out there. Then, 
aligning stakeholders to make sure that the messages that are 
being sent are clear and they are consistent.
    Many of the stakeholders and organizations involved are 
voluntary. Some of them are natural competitors, and so you are 
going to see messages that are designed to meet their own 
objectives and not necessarily the public's, in part, as well. 
So I think there are a lot of challenges remaining.
    Senator Smith. Very good. I see my time is up, and I may 
have another question.
    The Chairman. Thank you very much, Senator Smith.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I did a little field trip in preparation for this subject 
matter, and I was in the market for a television. So as I went 
around to buy televisions, I began asking the people at Best 
Buy and Circuit City about when the boxes were going to get 
there, and they said, ``Well, we have Direct TV here. You 
can''--you know, they were busy trying to point me out to cable 
or satellite providers. I said, ``No, no. Isn't there supposed 
to be a box here somewhere that is going to help me convert my 
TV?'' The salespeople really didn't know what I was talking 
about.
    Now, these boxes are supposed to be available January 1, 
and we are about to embark upon the biggest Christmas selling 
season in terms of buying TVs outside of--before the Super 
Bowl. I think the retailers will tell you that we are about to 
go into their busiest 3 months.
    When very confused consumers--and I have spent a lot of 
time trying to figure out all this stuff, plasma, LCD, DLP, do 
we worry about--what is it--a cable card? I really have worked 
at it. Now, if the people that are selling this stuff don't 
know the boxes are coming, and we don't really know when the 
boxes are going to get here, and there seems to be a chicken 
and an egg thing, in that they are not going to order boxes 
until they have demand, and they are not going to have demand 
until people know about the boxes, and, meanwhile, it is 4 
months from now. I think it takes 4 months to manufacture the 
boxes, doesn't it, Commissioner Kneuer?
    Mr. Kneuer. I don't know the manufacturing time in terms of 
months and the rest of it. Those are precisely the reasons we 
wanted to make sure that our vendor put together a concerted 
effort to do education with retailers as these things come 
online.
    The statute dictates that we be eligible and prepared to 
receive coupon requests as of January 1, 2008. It doesn't give 
us any authority on dictating supply chains and the rest. But 
recognizing exactly the dynamic that you are underlining, that 
having multiple manufacturers, having a competitive environment 
for boxes, and getting boxes into the marketplace is important, 
we designed our program to encourage the broadest possible 
participation by manufacturers, the broadest possible 
participation by retailers.
    The retailers told us from the outset, don't expect to get 
them lined up for this Christmas season. It is too early this 
year, and they are too focused on managing this year's 
Christmas rush. Introducing a new product will come after that 
in the January timeframe.
    So we have had lots of interest from manufacturers. We have 
been certifying boxes. We intend to certify, and I am sure we 
will be certifying more boxes. I believe boxes will be getting 
into the marketplace and broadly distributed by a broad cross 
section of both, you know, big box stores, nationwide 
retailers, and smaller regional retailers as well.
    Senator McCaskill. If someone has a coupon, and it expires, 
do they get another coupon?
    Mr. Kneuer. We want to--one of the things that the vendor 
has put in place is a very, very granular track, and one of the 
nice things about having IBM coordinating this entire thing, 
being responsible for the outreach to the retailers, is they 
will have visibility down by the zip code. If somebody sends in 
a request for a coupon, and the data from the vendor is that 
there aren't retailers in their area, or that there has been an 
interruption in the supply chain for some reason, whatever it 
is, we would not send those coupons out. We don't. . .
    Senator McCaskill. But what if somebody gets one, though? I 
am just assuming that this isn't going to work perfectly.
    Mr. Kneuer. Well. . .
    Senator McCaskill. If it doesn't, and if someone gets a 
coupon, and they can't find a box, and the coupon expires, do 
they get another coupon?
    Mr. Kneuer. We won't send coupons out, if that is the 
scenario. As things move along, and we have got wide-scale 
availability, and there is a nationwide market for this, if a 
coupon expires, you won't get another coupon. If a coupon is 
lost or destroyed, you can get another coupon.
    We won't send out coupons if there isn't a supply chain in 
place. But once the supply chain is in place, if the 90 days go 
by, and that coupon expires, you won't get another one. The 
reason for that is the statute tells us that they have to 
expire after 90 days.
    Also, people are going to make other choices. People will 
go into a store and decide--you know, maybe this time--they may 
have requested a coupon and then make a different decision. I 
want to have that $40 going back into the money I have 
available to fund people who really do decide that they want 
the financial assistance.
    Senator McCaskill. Well, that brings me to the second point 
I want to make this morning. You know, I don't mean to be crass 
here, but when things work well, there is usually a profit 
involved. As I look at the first commercial that I have seen on 
digital transition--and it is advertising that is running here 
in the Washington area with an--it is very effective--an 
elderly woman.
    Basically, the message of the ad is if you have cable TV, 
you are going to be OK. By the way, that picture on cable TV is 
just fantastic, and it is crisp, and really, it felt more like 
a commercial for cable TV. Now, it did give a Web site, which I 
don't think is going to be as valuable to the senior population 
as it might be to others, and it might have given a phone 
number, but I think the phone number--you just get a recording.
    So there wasn't anything in that message saying that you 
don't have to buy another cable box--you can get a coupon. I 
think that what is going to happen here is the retailers are 
not going to see profit in this. They are not going to promote 
it.
    The cable industry is not going to promote the education 
about the boxes because all they want to do is make sure that 
every TV in your house--that you are renting a box from them. 
They are not motivated. The satellite people aren't motivated. 
They want to sign you up for satellite.
    I am trying to figure out who is motivated here, and how 
this is ever going to work in a way that is going to be 
effective if we don't force feed it, and it doesn't feel like 
we are force feeding anything. It feels like we are just kind 
of letting everybody do their own thing, which I don't think is 
going to work at all.
    By the way, I am not comforted by the fact that the 
subcontractor that is going to do the public education piece is 
the same one we had for Medicare Part D. Well, that wasn't 
good. I mean, I wasn't even in office at the time, and they 
were calling me at home, you know, all the seniors trying to 
figure out their medicines.
    So I am worried. Don't you think we need to, that the FCC 
needs to, say to NTIA, ``We need one message, and you have got 
to do one message, and it has got to be fair in terms of making 
sure the consumer knows they don't have to buy more cable 
boxes, and they don't have to go to satellite?''
    Mr. Kneuer. I think there is--a different way you can look 
at the dynamic is that there are, in fact, very, very powerful 
market incentives for all of these market participants to 
deliver messages to their different customers. Cable certainly 
has a very different message than the broadcasters have, and 
satellite likewise. I think it is a good thing for satellite 
carriers and cable carriers to tell people, ``Don't worry. If 
you have got a box on your set that is supplied by cable or 
supplied by satellite, you don't need to go to a store.'' 
Senator McCaskill. But they don't tell you if you don't have a 
box, you are going to have to buy one.
    Mr. Kneuer. There has been. . .
    Senator McCaskill. Most cable houses don't have a box on 
every TV. There are TVs that don't have, and they are getting a 
signal now, and they are not going to get a signal after this.
    Mr. Kneuer. Under the--I will let Jonathan speak to this. 
On the regs that the commission adopted last week, the 
requirement is that cable operators are going to have to manage 
that, whether they have a box or don't have a box, for 3 years 
post the transition, from now through the next 3 years.
    So having a unified message, there is a danger to having a 
unified message. I think there is a considerable danger to 
having the Federal Government establish a mandated message. 
While it may seem comforting on the one hand, people are going 
to delay taking steps that they are currently taking if they 
have to wait and look to a bureaucracy to say, ``This is the 
message you are allowed to deliver,'' rather than looking after 
their own very vital self-interests. If they don't manage this 
transition to educate their customers, they are not going to 
have customers, and it is a much bigger stake than anything I 
think I can deliver to them.
    This is a huge market opportunity and a huge market danger 
for all of these entities, and I think you see that. You see 
cable has committed $200 million to this effort. I don't think 
that is purely altruistic, and I don't think it is anything 
that we ever could have required of them. I think there are 
challenges that is requiring specific messages. I don't think--
and Jonathan pointed it out--I don't think we can tell them 
what to say.
    Senator McCaskill. Well, we may not be able to tell them, 
but I think we can do better than we are doing now.
    Commissioner Adelstein.
    Mr. Adelstein. Well, I couldn't agree with you more, 
Senator, that we have a problem here with this, and that we do 
need to have sort of a clearinghouse for these ideas. That 
doesn't mean a mandated message. That means shouldn't somebody 
from the government at least have had an inkling about what 
this PSA is going to look like?
    They are talking about spending $200 million to tell people 
not to worry about it, when maybe a cable customer has a TV in 
the kitchen that only gets over the air broadcast signal that 
is going to go into snow, but the ads tell them not to worry 
and they think everything is fine until their TV no longer 
works. So, in fact, I am not sure that ad is particularly 
helpful in promoting the kind of message we want.
    That doesn't mean the government tells them what to say. I 
am not sure that we need to do that or that we have the 
authority to do that. But why don't we sit down with them and 
try to discuss this in a way that we can try to move them in a 
cooperative public-private partnership toward a coherent, 
consistent message to the degree we can. There will be 
differences, because they do have their own self-interests at 
heart, but we have the public's interest at heart. We are the 
only ones with the public's interest in heart, and we are not, 
I don't think, doing the job we need to do to make sure we are 
showing that kind of leadership.
    We have a lot of issues that both cable and broadcasters 
have in front of us, and when we sit down with them we need to 
say, ``Hey, what are you doing?'' and ``That isn't as helpful 
as it could be. If you are going to spend this kind of money, 
let us tell people what the pros and cons are, what they need 
to do.'' If we don't do that, nobody else is going to.
    If we don't try to coordinate the message, nobody else is 
in a position to be the referee, and everybody will be fighting 
for their own self-interest. We will have conflicting messages, 
we will have confusion, and there will be a huge waste of 
scarce resources, and I am afraid that is what is happening 
right now.
    Senator McCaskill. The only thing I think we should require 
is that they put you all's phone number on all the ads. 
[Laughter.]
    Mr. Kneuer. If I could. . .
    Senator McCaskill. I don't want them to call me.
    Mr. Kneuer. If I could just add to that a little bit, there 
is this public-private partnership that exists. The DTV 
coalition is made up of the consumer electronics industry, the 
cable industry, the broadcast industry, and more than 120 
advocacy groups. The FCC recently joined it, and we have been 
participating in this coalition since its inception.
    The purpose of that clearinghouse and of that coalition is 
to do precisely what Jonathan's talking about, which is have a 
single place for all of the parties that have an interest in 
this transition to coordinate their message, to talk about how 
we are going to reach hard to reach communities, as well as the 
broader public. So I think that activity and that public-
private partnership, to a large extent, already does exist.
    Given the fact that there would be serious issues with us 
doing anything more than coordinating messages--like I said, I 
don't believe that any of us have the authority to dictate 
messages. So not being able to dictate messages, but rather 
coordinating messages--I think that activity is going on, and I 
think, to date, it has been successful.
    We have had lots of productive meetings with them. We had 
the secretary of commerce over at NAB recording interviews and 
public announcements both in English and Spanish which are 
going to be delivered to thousands of television stations 
across the country. I mean, this is one example. But this 
public-private collaboration and partnership, to a large 
extent, I think, is already taking place.
    Mr. Adelstein. With all due respect, that group was 
established because we didn't do anything as the government. I 
mean, that sort of filled a vacuum, and I am very appreciative 
of the fact that the private sector stepped up and did that. 
But what you have in terms of the Federal Government's 
participation is we had some staff go and monitor, and the FCC 
finally joined it a few weeks ago.
    What if the FCC had its own leadership group that was 
coordinated among government? Just as businesses in the private 
sector have tried to coordinate among them, why don't we 
coordinate among government agencies? What about coordinating 
with SSA and AOA, as Senator Smith suggested, and all the other 
agencies that can help us get the word out to seniors, so we 
get our own message together, which GAO said we haven't done 
yet.
    Then once we have that kind of a powerful group together, 
wouldn't it be a different environment if that group called the 
DTV coalition in, and the government said, ``You come in and 
tell us what you are doing. You come in and report to us. You 
tell us what your PSA is going to look like. You tell us what 
your timelines are. Let us talk about a coordinated plan.'' 
Because nobody is going to plan if the government doesn't do 
it, if we don't step in, they are all going to follow their own 
self-interests, because that is the way that our system works, 
and that is fine with the private sector because most of the 
time we don't step in.
    But there has to be some leadership here, because we don't 
have enough time to just let all these different ad hoc and 
conflicting efforts--be released with the hope that they 
somehow add up to a comprehensive awareness campaign.
    Senator McCaskill. Thank you.
    The Chairman. Thank you, Senator McCaskill.
    Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    There is one more thing I would like to put on your radar 
screen, gentlemen. You know, with the coupon program, and with 
this transition period, I want to encourage you to think of 
worst case scenarios in terms of fraudulent schemes that might 
come up. I wonder if at this point you have any thoughts as to 
how the government can participate in educating seniors about 
the kinds of frauds that can--that are likely--that they can 
confront.
    Mr. Kneuer. We looked at waste, fraud and abuse as one of 
the key concerns that we had as we looked at launching this 
entire program, and on two different fronts, one on waste, 
fraud and abuse in the program itself, whether or not coupons 
would be redeemed fraudulently--people trying to aggregate 
coupons and commit a fraud against the Federal Government. The 
second part is the opportunity for fraud in the fulfillment and 
the retailing side of things, which is why we decided the best 
way to answer both of those is to certify retailers into the 
program.
    This program isn't open to any retailer. Retailers need to 
show that they have training materials, make sure that they 
have been in the business for more than a year. So we want to 
strike a balance of having a very, very broad retailer 
participation, because you want people to go to their local 
store and not have to go and say, ``OK, it is only available at 
a Best Buy,'' and there may not be one nearby.
    So we try to balance having broad participation, but also 
having some oversight and some rigor on who the retailers are 
and under what terms they are going to participate. So I guess 
the vendor is going to be responsible for developing training 
materials and bringing it to them, and they need to represent 
that they have got a trained staff, and that the materials that 
they are using to educate people about our program are accurate 
and made available to the broadest extent possible.
    Senator Smith. Mr. Adelstein.
    Mr. Adelstein. Well, I will let--the secretary talk about 
the converter box program. We have a problem going on right now 
in terms of misleading consumers that we are actively engaged 
in enforcing our labeling rules. We have a requirement that 
retailers put a label on the analog television sets that aren't 
able to receive a digital signal. It turns out, we did an 
investigative check into it, and there was vast lack of 
compliance, and we have talked about fines totaling over $3.2 
million already for just those violations.
    Subsequent to those violations, I went to one of the shops 
of one of the companies that we fined and found that the labels 
were no longer with the televisions. They moved the televisions 
around, and the analog labels were on digital TVs, and the 
digital TVs had analog labels. I mean, they were all mixed up, 
because as the inventory moved around, nobody knew about these 
labels.
    As a matter of fact, the clerk didn't even know that the 
label was there, and the clerk wasn't very well educated on the 
DTV transition. Again--Senator McCaskill talked about it--these 
folks have a real opportunity to sell people products. You come 
in, and they don't tell you about the converter box. They say, 
``All you need is this new $2,000 or $3,000 TV. Don't worry 
about the converter box,'' or ``You can sign up for Direct 
TV.''
    I mean, there are all these different ways of moving people 
to some product that actually makes more money for them than 
the converter box. So the poor senior that walks in the store 
can be victimized in ways that aren't necessarily illegal, but 
are certainly unethical and inappropriate, and ways that causes 
more harm than good to the consumer. We need to make sure that 
the retailers step up to the plate.
    We are engaged now in consent decree negotiations with the 
retailers to make them comply with these rules, and in the 
process of doing that, they are talking about agreeing to a 
comprehensive education effort, that includes staff training 
and putting millions of inserts into their newsletters and 
enhancing consumer education efforts. We are going to try to do 
that for every retail store and we need to continue to enforce 
our rules. I am pleased that we have enforced them the way we 
have, but we are a long way from making sure that consumers 
aren't misled.
    Right now, there are loads of analog TVs that are being 
dumped into the market very cheap that people are buying, and 
they have no idea as they walk out of the store that those 
aren't going to work after February 17, 2009.
    Senator Smith. John, I wonder if you can inform me as to--
the system you have sounds good as it relates to the retailer. 
Is there anything that can be done to--does it capture the 
traveling salesman who may knock on the door of the senior and 
want to sell them a converter box that somehow defrauds them--
they buy a $50 box, and they didn't need it, because they could 
have gotten one through the processes that we are providing?
    Mr. Kneuer. When we supply coupons to people, so if, when a 
consumer requests a coupon from us, when they get that coupon 
mailed back to them, it will also include a list of retailers 
by zip code near them who are approved into the program, who 
can educate them and help them, as well as a list of the 
approved boxes. So I don't know if there is anything within the 
distribution of the coupon program we could do for people who, 
you know, if you have gotten that kind of a traveling fraud.
    But to the extent that somebody asks for a coupon, when 
that coupon is delivered to them, it is also going to include 
information, where you should go to get the best information 
and to find a certified retailer and what boxes are available 
for the program. So if they follow that guide. . .
    Senator Smith. If they want to buy something from the 
traveling salesman, they can do that. They may--they didn't 
need to get it from him, because they are going to pay for it. 
. .
    Mr. Kneuer. Right.
    Senator Smith. . . . whereas they could have gotten it 
through the coupon program. But I wonder, I didn't think what 
you laid out could stop that, but what I would like to see is 
an information campaign that includes a warning that you don't 
have to buy something--this is how you get.
    Mr. Kneuer. Right.
    Senator Smith. Is that being done?
    Mr. Kneuer. I think those are the kinds of things--as we 
are developing the overall messaging campaign. We awarded this 
contract just, almost a month ago, to the day. They are now 
undergoing the process of consumer research and going out and 
talking about those things. But those are the kinds of things 
that--we can certainly go back to them and say, you know, here 
is something you ought to think about. That, not just in making 
people aware, but letting them know that there is a way to 
manage this and sort of warn them against those sorts of fraud 
opportunities.
    Senator Smith. I think it is very important to provide that 
kind of warning, because that is sort of where fraudulent 
schemes can get around the program that has been designed. 
Thank you.
    The Chairman. Thank you very much, Senator Smith.
    We would like to thank the three gentlemen. It has been a 
very good panel, and I think we got many of the most important 
issues out, understanding the challenges and what needs to be 
done, and you have provided a good service here this morning. 
Thank you so much.
    Mr. Goldstein. Thank you, Senator.
    Mr. Adelstein. Thank you.
    Mr. Kneuer. Thank you, Mr. Chairman.
    The Chairman. On Panel II, our first witness on this panel 
will be Nelda Barnett. Nelda Barnett is a member of the AARP 
Board of Directors, where she chairs the AARP Foundation board. 
She is a member of the Board Governance Committee and the AARP 
Financial Board. In addition to being a former AARP Kentucky 
state president, Ms. Barnett has devoted 30 years to the aging 
field.
    Next, we will hear from Amina Fazlullah, a media reform 
advocate and staff attorney with the U.S. Public Interest 
Research Group, specializing in media technology and digital 
consumer rights. Ms. Fazlullah monitors the FCC and previously 
served as a law clerk at the FCC's Office of Strategic Planning 
and Policy Analysis.
    Next, we will be hearing from Sandra Markwood. Ms. Markwood 
is the CEO of the National Association of Area Agencies on 
Aging, which represents the interests of the nation's 655 area 
agencies and 240 Title VI native American programs. 
Additionally, she has worked for more than 20 years providing 
policy and programmatic support in counties and cities all 
across the United States.
    Last, we will be hearing from Marcellus Alexander, Junior, 
who is the executive vice president of television for the NAB. 
The National Association of Broadcasters aims to represent the 
interests of free over-the-air radio and TV broadcasters, and 
Mr. Alexander oversees that effort. Previously, he served as 
vice president and general manager of KYW TV in Philadelphia.
    We thank you all for being here this morning, and we will 
take your testimony.
    Ms. Barnett.

 STATEMENT OF NELDA BARNETT, BOARD MEMBER, AARP, OWENSBORO, KY

    Ms. Barnett. Good morning to you, and thank you very much 
for affording us this opportunity to come and testify on the 
impact the digital television transition will have on older 
Americans. My name is Nelda Barnett, and I am a member of the 
AARP Board of Directors.
    The digital transition will require an adjustment and an 
expense for many Americans. For older Americans, there will be 
additional burdens that must be addressed.
    Thank you, Chairman Kohl, for holding this hearing and for 
drafting legislation to ease these burdens.
    AARP has urged policymakers to mitigate the challenge the 
DTV transition presents for all consumers, particularly older 
persons. We continue to call attention to the importance of 
comprehensive consumer education and outreach to inform all 
affected individuals about the DTV transition and converter box 
coupon program.
    My remarks this morning will focus on seven points:
    First, a large percentage of analog-only households are 
older individuals who will be disproportionately impacted by 
the DTV transition and who are not prepared. Recently, CENTRIS 
released survey data that revealed older individuals are more 
likely to be found in over-the-air households and require a 
special focus for DTV transition education.
    The second one, older Americans rely on television 
broadcasts for critical weather and safety information and 
can't afford to lose access to these broadcasts. Older 
individuals rely on their television for daily weather 
forecasts, as well as all important weather updates and 
national and local emergency announcements. The DTV presents a 
challenge to uninterrupted access to this critical weather and 
safety information which much continue after the DTV 
transition.
    The third one, older persons confront additional challenges 
related to obtaining and redeeming the converter box coupons 
and installing the converter boxes.
    Fourth, coupons should only be distributed when converter 
boxes are available for purchase at the retail stores. 
Consumers will become frustrated if they have a coupon that 
cannot be used and that does expire in 90 days. A mechanism 
should be designed to track the location of stores stocking the 
coupon qualified boxes.
    Fifth, older persons are particularly vulnerable to 
potential coupon fraud and abuse and could be subjected to 
retailers' up-selling efforts.
    As we just heard a moment ago, older persons--Sixth, is 
older persons residing in nursing homes and assisted living 
facilities are at risk of being left behind in this transition. 
The NTIA converter box coupon rules define a household as all 
persons who currently occupy a house, apartment, mobile home, 
group of rooms or a single room that is occupied as separate 
living quarters and has a separate U.S. postal address. This 
definition does not cover residents in nursing homes or in 
assisted living facilities. Congress needs to take steps to 
ensure these residents qualify to participate in the converter 
box coupon program.
    There must be--and seventh--there must be a coordinated 
nationwide education campaign that includes Federal, state and 
local agencies and programs serving consumers who are at great 
risk of losing their broadcast television service, particularly 
the vulnerable population groups, such as the older people. 
Chairman Kohl's draft legislation addresses this need for 
government coordination, developing a partnership to create a 
public education campaign that provides information to older 
individuals, their families, their caregivers, and aging 
support networks.
    In conclusion, in about 17 months, on the morning of 
February 18, 2009, consumers in households around the country 
could discover that they are unable to view their regular 
morning television programs. Older Americans could be cutoff 
from the important weather and safety information. They will be 
confused, frustrated, and angry that this important information 
and entertainment source is no longer operational through no 
fault of their own.
    We all have an important role to play to keep consumers 
connected and, particularly, to assist more vulnerable 
populations such as the older people. While AARP will do its 
part to prepare our members and older persons, generally, we 
are also counting on policymakers to take any steps necessary 
to ensure all consumers, regardless of age, income, native 
language, or other factors, are ready for this significant 
change.
    Thank you very much for allowing me to be here this 
morning.
    [The prepared statement of Ms. Barnett follows.]
    [GRAPHIC] [TIFF OMITTED] 40539.030
    
    [GRAPHIC] [TIFF OMITTED] 40539.031
    
    [GRAPHIC] [TIFF OMITTED] 40539.032
    
    [GRAPHIC] [TIFF OMITTED] 40539.033
    
    [GRAPHIC] [TIFF OMITTED] 40539.034
    
    [GRAPHIC] [TIFF OMITTED] 40539.035
    
    [GRAPHIC] [TIFF OMITTED] 40539.036
    
    [GRAPHIC] [TIFF OMITTED] 40539.037
    
    [GRAPHIC] [TIFF OMITTED] 40539.038
    
    [GRAPHIC] [TIFF OMITTED] 40539.039
    
    [GRAPHIC] [TIFF OMITTED] 40539.040
    
    [GRAPHIC] [TIFF OMITTED] 40539.041
    
    [GRAPHIC] [TIFF OMITTED] 40539.042
    
    The Chairman. Thank you, Ms. Barnett.
    Ms. Fazlullah.

   STATEMENT OF AMINA FAZLULLAH, STAFF ATTORNEY, U.S. PUBLIC 
            INTEREST RESEARCH GROUP, WASHINGTON, DC

    Ms. Fazlullah. Thank you, Chairman Kohl, Ranking Member 
Smith, and the members of this Committee. I am Amina Fazlullah, 
a media and telecommunications staff attorney for the United 
States Public Interest Research Group. U.S. PIRG is a 
federation of state public interest research groups, 
nonpartisan, nonprofit, public interest advocacy organizations 
based in 30 different states.
    It has been nearly 2 years since Congress established the 
official transition date from analog television broadcasting to 
digital. Yet virtually no U.S. consumer knows what will happen 
on February 17, 2009.
    On that date, television broadcasters will switch from 
analog to digital signals. The transition offers the country 
the return of valuable beachfront property spectrum that can be 
used to enhance emergency communications, spur innovation and 
improve broadband's connectivity.
    But there is one other thing that will happen on February 
17, 2009. Every consumer who watches over-the-air television 
with an analog set will have their sets go dark. Included in 
the estimated 22 million consumers in this category are 8 
million households with at least one member older than 50. 
Based on preliminary U.S. PIRG research, we will discuss today 
that neither the government nor the retailers are adequately 
preparing consumers for the impending DTV transition.
    Industry stakeholders have made substantial promises to 
inform the public. While U.S. PIRG agrees that this transition 
cannot be successful without the support of industry, we 
believe that the industry's participation must be mandated and 
closely monitored to ensure that consumers have a fully 
protected experience throughout the transition.
    As of August 2007, U.S. PIRG completed a preliminary study 
that surveyed the top five electronics retailers in the D.C. 
metro area. Our initial findings were based on interviews with 
clerks and supervisory personnel, and they are alarming. They 
show that despite industry promises to educate and prepare 
personnel, all five retailers had personnel that provided 
inaccurate or even misleading information.
    Our surveyors found that when asked, retailers did not 
acknowledge the existence of converter boxes or the coupon 
program. In many cases, the retail staff told surveyors that to 
continue to receive broadcast signals, a consumer's only choice 
would be to buy a brand new television set, or an upgraded HDTV 
set. For example, in a Virginia area Wal-mart, our surveyors 
were told that their only option was to buy a brand new HDTV or 
sign up for cable or satellite service.
    In another Virginia area Best Buy, our surveyors were told 
that the upcoming transition meant that signals would now all 
be HDTV signals, confusing the DTV signals and HDTV signals, 
and that consumers would have to buy a brand new HDTV to 
continue getting over-the-air television. In another Virginia 
area Best Buy, our surveyors were told that to continue 
receiving television signals after the transition, they would 
have to purchase a useless HDTV tuner, costing them over $174.
    In a Virginia area Target, our surveyors were told of 
converter boxes, but were not told of the discount and were not 
told of the government program or the coupon program. The 
digital set would actually be cheaper, they were told, than a 
converter box in initial cost.
    In almost every store surveyed, we found a number of analog 
television sets still on the shelves, sometimes labeled on the 
box, sometimes on the shelf. But in all stores, it could be 
easy for a consumer to miss the warning label. Throughout this 
fall and the holiday shopping season, it is critical that 
bargain hunting shoppers aren't duped into purchasing slightly 
discounted analog television sets when they will have to 
purchase a converter box just months later.
    While all stores knew of the transition and the deadline, 
all retailers had personnel that mistakenly switched standard 
definition digital television with high definition television, 
that is SDTV with HDTV. At no point in time did any of the 
personnel from any of the stores tell us that they weren't 
familiar with the details of the switch or directed us to any 
helplines, managers, materials or Web sites.
    Our preliminary results demonstrate the need for strong 
government oversight into the industry efforts in the DTV 
transition. We have only a few months to ensure that the 
benefits of this transition don't come at a cost to our most 
vulnerable consumers.
    Before we jump ahead to the boons of the transition, we 
have got to put time, effort and resources into preparing 
consumers for the day that their TV will go dark. If we don't 
find a way to communicate to our most vulnerable consumers how 
and when the transition occurs, we run the risk as a country of 
shutting off democratic debate and crucial emergency services 
to low income, rural, minority, and older Americans.
    Thank you for both the opportunity to speak today and for 
your leadership as we move forward in addressing the digital 
television transition.
    [The prepared statement of Ms. Fazlullah follows:]
    [GRAPHIC] [TIFF OMITTED] 40539.043
    
    [GRAPHIC] [TIFF OMITTED] 40539.044
    
    [GRAPHIC] [TIFF OMITTED] 40539.045
    
    [GRAPHIC] [TIFF OMITTED] 40539.046
    
    [GRAPHIC] [TIFF OMITTED] 40539.047
    
    [GRAPHIC] [TIFF OMITTED] 40539.048
    
    The Chairman. Thank you very much, Ms. Fazlullah.
    Ms. Markwood.

STATEMENT OF SANDRA MARKWOOD, CHIEF EXECUTIVE OFFICER, NATIONAL 
     ASSOCIATION OF AREA AGENCIES ON AGING, WASHINGTON, DC

    Ms. Markwood. Thank you, Chairman Kohl, and thank you so 
much for bringing me here today to have the opportunity to talk 
with you about the kind of assistance that older adults in this 
country, especially frail, vulnerable older adults, are going 
to need with the television conversion in February 2009. My 
name is Sandy Markwood, and I am the chief executive officer of 
the National Association of Area Agencies on Aging, which 
represents 650 area agencies across the country as well as 240 
Title VI native American aging programs.
    Across the nation, these agencies are serving millions of 
older adults in communities every day. As you know, the 
upcoming digital conversion process has begun to set off alarms 
for all of the aging organizations and advocates who serve 
these vulnerable older adults.
    As we work to get up to speed on the issue, local aging 
organizations have a myriad of questions and concerns about how 
the transition and the way it is handled nationally will affect 
the older adults that we serve. If you think that we have 
questions and concerns today, you can imagine the extent of the 
questions that consumers over the age of 60 will have with the 
upcoming conversion.
    Fortunately, there is still time to improve the digital 
transition process for older adults if local aging groups are 
consulted and engaged to help educate and assist older adults 
and their caregivers in this process. As you heard, current 
data suggests that older adults are likely to have the older 
analog television sets, and they are less likely to have cable 
television service.
    Given the other realities that many older adults face, such 
as physical, financial and transportation limitations, it is 
safe to say that older adults will be significantly and 
disproportionately affected by this transition. As you have 
already heard, older adults rely on television sets as their 
important life line to the outside world.
    Area agencies on aging and Title VI programs are at a 
perfect access point for reaching the older adults who will be 
most affected by the digital television conversion. Area agency 
staff and their provider partners across the country are on the 
front lines, working daily in the homes and in the communities 
of older adults and caregivers, especially those individuals 
who are most in need of assistance to continue to live 
independently. Those older adults are the most frail and 
vulnerable, the low income, older adults who are over the age 
of 85, and minority elders.
    The staff of area agencies and Title VI programs are the 
people that older adults go to with questions and concerns when 
they are in need of assistance. Meals on Wheels volunteers, 
senior center staff, home health workers, transportation 
providers, case managers--these are individuals who form 
important relationships with older adults and caregivers. It is 
these relationships that older adults and their families are 
going to come to trust and rely upon, and it is these 
professionals, volunteers and agencies that they are going to 
turn to when they don't understand what they need to do about 
the February 2009 conversion.
    While area agencies and their provider partners will surely 
want to do all that they can to assist older adults in their 
community with the digital conversion, they will be limited by 
a lack of information and expertise. There is currently no 
training and technical assistance provided to this population 
of service providers, and there is a lack of funding.
    The amount of funding provided so far by the Federal 
Government for public education on the conversion is woefully 
inadequate. The $5 million will probably not cover sufficient 
public service announcements and media events to reach a 
majority of seniors, much less will it answer the questions 
that will result from them. More importantly, from our 
perspective, it is likely to provide nothing for the 
implementation work that surely awaits the aging network.
    Government and private industry must not assume that the 
aging network or, for that matter, any other nonprofit 
community group can take on this work without new and 
sufficient resources. Aging professionals have big hearts, but 
their agencies and programs have thin wallets, and they already 
have very overworked staff.
    We have learned some hard lessons from the 2005 
implementation of Medicare Part D, and we believe that they are 
relevant to this conversation. Area agencies on aging and Title 
VI programs did, and they continue to do, a lot of the heavy 
lifting in enrolling people in Medicare Part D.
    They have held community-wide events. They have done one-
on-one enrollment assistance, and they have helped older 
adults, confused older adults, to be able to sign up and get 
benefits from this program. Yet only a small number of area 
agencies or Title VI programs received any additional funding 
to do this job.
    This put agencies in a very difficult spot as they were 
forced to divert limited dollars and staff to help older adults 
in need to sign up for Medicare Part D. Our agencies cannot 
provide this level of support to this issue without additional 
resources.
    If the Federal Government and private industry want to 
ensure that the digital conversion goes smoothly and doesn't 
leave older Americans behind, n-4A recommends that the 
following actions be taken.
    First, government and industry must reach out to the aging 
network and other aging advocates for input into any consumer 
education campaign. To date, n-4A and its members have not been 
approached by any industry group, private company, or Federal 
agency on this issue. Only Congress and Retirement Living TV 
have sought our opinion or perspective on this issue.
    Our agencies and their colleagues know the challenges older 
adults, especially those who are most frail and vulnerable, 
face, and they will offer their expertise in developing and 
disseminating public service ads, marketing strategies, and 
acting in advance to prevent older adults' televisions from 
going dark if they get some support.
    Second, government and industry must offer thorough 
training and technical assistance to any community-based 
organizations expected to assist in this effort. Again, with 
the Medicare Part D implementation experience still at the 
forefront of our minds, we ask that materials be made available 
to aging professionals that allow them to quickly and easily 
assist older consumers with basic questions about the 
conversion.
    Government and industry should establish clear sources of 
consistent consumer information. But it is our experience, 
again, with Medicare Part D, that printed or television and 
radio ads alone are not enough. Older adults want to talk to a 
real person to get real answers.
    Third, n-4A recommends that adequate and direct funding be 
directed to area agencies, Title VI programs, and the rest of 
the aging network to support any and all of the consumer 
education and assistance efforts that are needed. Without 
financial resources, the first two recommendations cannot be 
implemented, nor can our agencies or partners participate 
effectively in the conversion campaign to ensure that older 
adults are not left in the dark on February 18, 2009.
    Thank you for the opportunity to testify today, and I would 
be happy to answer questions.
    [The prepared statement of Ms. Markwood follows:]
    [GRAPHIC] [TIFF OMITTED] 40539.049
    
    [GRAPHIC] [TIFF OMITTED] 40539.050
    
    [GRAPHIC] [TIFF OMITTED] 40539.051
    
    [GRAPHIC] [TIFF OMITTED] 40539.052
    
    [GRAPHIC] [TIFF OMITTED] 40539.053
    
    [GRAPHIC] [TIFF OMITTED] 40539.054
    
    [GRAPHIC] [TIFF OMITTED] 40539.055
    
    [GRAPHIC] [TIFF OMITTED] 40539.056
    
    [GRAPHIC] [TIFF OMITTED] 40539.057
    
    The Chairman. Thank you, Ms. Markwood.
    Mr. Alexander.

  STATEMENT OF MARCELLUS ALEXANDER, EXECUTIVE VICE PRESIDENT, 
      NATIONAL ASSOCIATION OF BROADCASTERS, WASHINGTON, DC

    Mr. Alexander. Thank you, Chairman Kohl, and thank you for 
your leadership on this very important issue. My name is 
Marcellus Alexander, and I am executive vice president for 
television at the National Association of Broadcasters. I 
greatly appreciate this opportunity to testify today.
    Local broadcasting is a vital part of everyday life, with 
local news, weather, information, and programming. The switch 
to digital broadcasting holds great promise, and as previously 
mentioned, it is of particular significance to older Americans.
    Research suggests that older Americans are among the groups 
who will be disproportionately affected by the transition. In 
fact, adults ages 55 and older spend more time watching 
broadcast television than other television services. It is 
critical that we maintain their access to local news, emergency 
information and entertainment.
    For close to 20 million households, their choice and time 
spent watching TV are with local broadcasting. I have managed 
television stations in Baltimore and Philadelphia, and I can 
tell you that broadcasters do not want to lose any viewers, 
period, and they will do what it takes to ensure that they 
don't.
    Local broadcasters have a social and community 
responsibility to ensure that television viewers understand 
what they need to do to continue to receive their free over-
the-air local television. It is also, as Senator McCaskill 
suggested, good business sense.
    Let me be clear. DTV consumer education is the No. 1 
priority of the NAB television board of directors. In July, NAB 
president, David Rehr, sent a letter to every Member of 
Congress outlining our efforts on the digital transition. One 
of these is the DTV Transition Coalition, started by NAB and 
seven other organizations. It has now grown to include over 160 
members, including the FCC.
    This coalition includes the AARP and cable channel, 
Retirement Living Television, or RLTV. These organizations will 
help give specific focus to reaching the older American 
population. AARP has taken a leading role in the coalition and 
is able to review and help shape the materials that the 
coalition sends out to its members.
    In May, NAB participated in a DTV transition themed and 
televised town hall meeting. RLTV will be promoting these 
meetings across the country in the upcoming months.
    Our partnership, however, can't end there. Recently, we 
have reached out to the National Council on Aging and sent 
letters to the Aging Agencies of all 50 states.
    I am fortunate and blessed to have both parents still 
living. So I look at the transition through their eyes, and I 
can see firsthand some of our challenges. Mom and Dad, who live 
in Texas, still like to watch local news, and Dad doesn't like 
to miss the Dallas Cowboys play, in spite of my advice on 
better teams.
    So we will reach Mom and Dad's eyes and ears with 
information from a variety of sources--public service 
announcements, news stories, information crawls, speakers' 
bureaus, seniors' publications, Web sites, just to name a few. 
Additionally, I am very pleased to share that early next week, 
NAB will announce the next phase of our comprehensive media 
strategy to deliver information across multiple media platforms 
and to grow consumer awareness across the country.
    Many individual stations are already running DTV transition 
public service announcements. Raycom Media, for example, is 
running a series of PSAs under the theme, The Big Switch. Other 
companies, like Capitol Broadcasting, Post-Newsweek, 
Bonneville, Freedom Broadcasting, and Dispatch Broadcast Group, 
are also already running DTV public service announcements. 
Still many others have aired news stories on the subject.
    Today, I am pleased to announce, also, that NAB has 
developed and sent to stations yesterday a video package that 
includes interview sound bites for use in newscasts and other 
specials that stations may choose to do. Yes, that video 
package does include English and Spanish language public 
service announcements as one part of our overall communications 
strategy. The PSAs are close-captioned and include a 1-800 
phone number.
    Now, what can Members of Congress do? NAB sent a DTV 
toolkit--looks like this--to every Member of Congress, 
suggesting ways in which you might help to reach your 
constituents with information about the transition. We are 
pleased that this Committee's Web site includes a link to DTV 
transition information. NAB encourages all members to include 
access to this information on their office Web sites.
    Mr. Chairman, the NAB and the coalition efforts are well 
underway. We hope we can work together to ensure that all 
consumers, including older Americans, maintain access to free 
over-the-air television.
    Thank you very much for this opportunity. I look forward to 
answering your questions.
    [The prepared statement of Mr. Alexander follows:]
    [GRAPHIC] [TIFF OMITTED] 40539.058
    
    [GRAPHIC] [TIFF OMITTED] 40539.059
    
    [GRAPHIC] [TIFF OMITTED] 40539.060
    
    [GRAPHIC] [TIFF OMITTED] 40539.061
    
    [GRAPHIC] [TIFF OMITTED] 40539.062
    
    [GRAPHIC] [TIFF OMITTED] 40539.063
    
    [GRAPHIC] [TIFF OMITTED] 40539.064
    
    [GRAPHIC] [TIFF OMITTED] 40539.065
    
    [GRAPHIC] [TIFF OMITTED] 40539.066
    
    [GRAPHIC] [TIFF OMITTED] 40539.067
    
    [GRAPHIC] [TIFF OMITTED] 40539.068
    
    The Chairman. Thank you, Mr. Alexander. Mr. Alexander, 
without guidelines and oversight, many people are worried that 
many of these PSAs will be shown at times when very few or 
perhaps no one is watching. Can you guarantee that all 
commercial broadcasters can and will air PSAs during prime time 
slots to educate their viewers about the transition?
    Mr. Alexander. Senator, here is what I can guarantee. 
Broadcasters, as I mentioned, don't want to lose one single 
viewer. It is in our best interest not to lose them.
    Broadcasters will present a comprehensive plan to reach 
those over-the-air viewers who are particularly at risk. That 
plan will include public service announcements. It will 
include, also, any number of other tools that broadcasters have 
at their disposal to reach those viewers.
    We have to make certain that this is a successful 
transition, and we will use every available opportunity--public 
service announcements, crawls, news stories, speakers' bureau 
that we have got planned for across the country, a host of 
other elements--to make certain that the consumers are educated 
to this transition.
    The Chairman. Ms. Fazlullah, we hope that your findings 
that sales clerks are providing misleading information about 
the boxes and the coupon program will persuade retailers to 
change their selling tactics. Do you expect that this will 
happen, or do you think we have much, much more to do?
    Ms. Fazlullah. I would say that, unfortunately, I think it 
is going to take a lot more from government before the 
retailers actually act on providing appropriate information. We 
were disappointed to find that even as late as August 2007 that 
retailers were confusing terms related to DTV, that they were 
offering boxes that weren't relevant to the transition, or even 
trained to up-sell consumers.
    The labeling that is on the analog television sets is still 
poor and mismanaged, and that is a serious problem going into 
this shopping season when there are still sets on the shelves. 
We hope that, talking about these findings will put a fire 
underneath the retailers and have them start to act better.
    It is not difficult for them to do the right thing. It is 
very simple. They need to simply educate their personnel and 
provide them with basic pieces of information: there is a 
conversion coming, there are converter boxes available, there 
is a coupon program available. They can even offer consumers 
information about cable and satellite and other new television 
sets. But it is crucial that they talk about the converter box 
and the coupon program.
    The Chairman. Thank you.
    Ms. Markwood, would you say a little bit more on the ways 
that the Federal Government and industry groups can provide 
assistance and resources to the aging network so as to ease the 
burden that they may face in educating seniors about this 
transition?
    Ms. Markwood. Absolutely. I think that, again, harkening 
back to the Medicare Part D experience, the need for consistent 
information, the need to be able to have printed materials that 
are vetted through the aging network so that they are 
appropriate for older adults. Again, I am very concerned about 
some of the materials that are out there that are really 
actually caricatures of older adults in both the print and 
video media.
    Please ensure that there is a consistent package of 
information that the Federal Government could approve that 
would go out to the area agencies through the aging network, 
and then at that level, to train someone at that level, to be 
able to respond to the questions that older adults and their 
caregivers will inevitably ask. There has to be someone who can 
answer a question, it has to be a real person, and that needs 
to happen at the community level.
    Toll-free numbers are great. Internet access, I think, is 
limited. But there needs to be someone who is available to be 
able to answer older adults' and caregivers' questions. That 
can happen and has happened through the aging network on many 
other issues, and it can happen on this one, too, with support.
    The Chairman. Thank you.
    Ms. Barnett, is there any more that you would like to say 
on your concerns about retailers not having converter boxes 
available, as well as the need for installation support for the 
elderly? Is it true that many, many elderly people, even if 
they get the box, will not know how to install it?
    Ms. Barnett. That is correct. Many of them will not be able 
to move their television in order to establish this box in 
place. Besides that, they probably don't know, when they see 
the back of the television, where to plug it in.
    There will be ways that this can be done that can be 
helpful, but this has all got to be put in place. As Ms. 
Markwood just said, we have got to have the consistent message 
so that everybody understands, and then we can get to the 
families, the caregivers, the neighbors, the volunteers that 
can help to put this in place.
    The Chairman. Thank you.
    Well, we thank you all for being here today. I think this 
panel has demonstrated clearly and fully that we have a huge 
challenge awaiting us in February of 2009, and that there is 
much, much work that needs to be done in anticipation of that 
day. Your being here today helps us a lot. We thank you for 
coming.
    With that, this hearing is closed.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Prepared Statement of Senator Norm Coleman

    Mr. Chairman,
    Thank you for holding this very important hearing on the 
Digital Television (DTV) transition and its impact on seniors.
    I come to this hearing with great interest in and concern 
about the impact of this transition on all Minnesotans and in 
particular on the state's seniors.
    Mr. Chairman, currently my state of Minnesota ranks third 
in the nation in the number of over-the-air broadcast only 
households. According to the Association of Public Television 
Stations (APTS), currently 24 percent of households in 
Minnesota are over-the-air only and among households over the 
age of 65 that number increases to 28 percent. Nationally, 19 
percent of households are over-the air only, according to GAO.
    Moreover, Mr. Chairman, Minnesota stands out in terms of 
the number of counties in which there are more than 30 percent 
of over-the-air broadcast only households. There are 13 such 
counties in Minnesota, ranging from the well-populated county 
of Ramsey to the more sparsely populated county of Aitkin. To 
put this in perspective, other states such as Florida and New 
York do not have a single such county while a state like 
California has only three such counties.
    Mr. Chairman, as these figures demonstrate, this is a big-
time, prime-time issue for my state. It is absolutely critical 
that this transition succeed. For if it does not, there will be 
folks who will be left in the dark following the deadline. 
After all, this is a transition greater than the advent of 
color television for we are talking about the possibility of 
folks losing out on television altogether as a result of the 
transition. At least with the transition to color, folks could 
continue to receive programming, albeit in black and white.
    At the end of the day this is not simply a matter of folks, 
especially seniors, losing out on entertainment programming but 
also critically important and at times life-saving programming.
    As of today, we are just 517 days away from the February 
17, 2009, DTV transition deadline. While that February deadline 
may seem far off, it will arrive sooner than we think. Already 
588 days have come and gone since this deadline became law.
    As we get closer to the transition deadline, it is clear 
that much work remains to be done judging by a recent poll done 
by the Association of Public Television Stations (APTS), in 
which 61 percent of over-the-air households did not know about 
the transition. Accordingly it is imperative that both the 
federal government and industry do their best to ensure the 
successful debut of digital only television.
    In closing Mr. Chairman, failure is not an option and so I 
appreciate your efforts in holding today's hearing that will 
further inform us as to the government's and industry's digital 
transition efforts.
                                ------                                


              Prepared Statement of Senator Susan Collins

    Good morning. I want to thank Chairman Kohl and Ranking 
Member Smith for scheduling this meeting today on the all-
important subject of the Digital Transition.
    Just under seventeen months from now, on February 17, 2009, 
the nation's television stations will complete the transition 
to digital broadcasting, and will stop broadcasting analog 
television signals. On that date, analog televisions sets which 
receive over-the-air broadcast signals will ``go dark'', unless 
they are plugged into digital converter boxes. In my home 
state, Maine, eighty-seven thousand households face this 
problem, and nationally, over 21 million households could be 
affected.
    Right now, analog TV signals are being carried on what is 
sometimes called the ``beach front property'' of the nation's 
radio spectrum--the portions of the spectrum that are the most 
valuable, and most useful for advanced telecommunications that 
require ``Big Broadband''. Reallocating the spectrum will open 
the door to advanced interoperable communications for First 
Responders, broadband Internet access throughout rural America, 
and televisions sets with clearer, sharper pictures, and CD-
quality sound.
    Ultimately, the DTV transition will benefit everyone, and 
it is essential that the digital transition proceed. But it is 
also essential that the transition to be managed smoothly. It 
is absolutely vital that the public know about the transition 
and be prepared for it. No one should have to turn on their TV 
to a ``dark screen'' on February 18, 2009.
    To protect against this, when Congress approved the ``hard 
date'' for the digital transition two years ago, we also 
approved a coupon program for ``digital converter boxes'' that 
can be used to allow analog TVs to receive digital TV signals. 
But these coupons won't be available until January 1, and at 
$40 each they will not cover the full cost of the converter 
boxes, which are expected to run between $50 and $70 a piece.
    I am concerned at the progress made so far in getting the 
word out to the public about the transition. Earlier this year, 
the Association of Public Television Stations released a survey 
showing that the vast majority of the 21 million American 
households that receive television signals over-the-air where 
unaware of the DTV transition. The survey also showed that only 
19% of these households would purchase a converter box, while 
roughly half of these households do not know what they will do. 
Other studies confirm the findings of the APTS survey, and 
underscore the importance of doing more to make the public 
aware of the transition.
    I worry that the elderly are even less well-prepared for 
the DTV transition than the general public.
    I note that only $6.5 million is expected to be available 
to educate 300 million Americans about the upcoming transition. 
By contrast, Great Britain is spending $400 million over 
several years to get the word out about the digital transition 
there.
    I look forward to hearing the thoughts of the panelists on 
where we stand on educating the public, especially older 
Americans, about the DTV transition. I would welcome the view 
of the panelists on whether the amount provided to support 
outreach and education is really adequate to the task, whether 
the coupon program can be improved, and what other steps can be 
taken to support a successful transition to digital 
broadcasting.
[GRAPHIC] [TIFF OMITTED] 40539.069

[GRAPHIC] [TIFF OMITTED] 40539.070

[GRAPHIC] [TIFF OMITTED] 40539.071

[GRAPHIC] [TIFF OMITTED] 40539.072

[GRAPHIC] [TIFF OMITTED] 40539.073

[GRAPHIC] [TIFF OMITTED] 40539.074

[GRAPHIC] [TIFF OMITTED] 40539.075

[GRAPHIC] [TIFF OMITTED] 40539.076

[GRAPHIC] [TIFF OMITTED] 40539.077

[GRAPHIC] [TIFF OMITTED] 40539.078

[GRAPHIC] [TIFF OMITTED] 40539.079

[GRAPHIC] [TIFF OMITTED] 40539.080

[GRAPHIC] [TIFF OMITTED] 40539.081

[GRAPHIC] [TIFF OMITTED] 40539.082

[GRAPHIC] [TIFF OMITTED] 40539.083

[GRAPHIC] [TIFF OMITTED] 40539.084

[GRAPHIC] [TIFF OMITTED] 40539.085

[GRAPHIC] [TIFF OMITTED] 40539.086

[GRAPHIC] [TIFF OMITTED] 40539.087

[GRAPHIC] [TIFF OMITTED] 40539.088

[GRAPHIC] [TIFF OMITTED] 40539.089

[GRAPHIC] [TIFF OMITTED] 40539.090

[GRAPHIC] [TIFF OMITTED] 40539.091

[GRAPHIC] [TIFF OMITTED] 40539.092

[GRAPHIC] [TIFF OMITTED] 40539.093

[GRAPHIC] [TIFF OMITTED] 40539.094

[GRAPHIC] [TIFF OMITTED] 40539.095

[GRAPHIC] [TIFF OMITTED] 40539.096

[GRAPHIC] [TIFF OMITTED] 40539.097

[GRAPHIC] [TIFF OMITTED] 40539.098

[GRAPHIC] [TIFF OMITTED] 40539.099

[GRAPHIC] [TIFF OMITTED] 40539.100

[GRAPHIC] [TIFF OMITTED] 40539.101

[GRAPHIC] [TIFF OMITTED] 40539.102

[GRAPHIC] [TIFF OMITTED] 40539.103

[GRAPHIC] [TIFF OMITTED] 40539.104

[GRAPHIC] [TIFF OMITTED] 40539.105

[GRAPHIC] [TIFF OMITTED] 40539.106

[GRAPHIC] [TIFF OMITTED] 40539.107

[GRAPHIC] [TIFF OMITTED] 40539.108

[GRAPHIC] [TIFF OMITTED] 40539.109

[GRAPHIC] [TIFF OMITTED] 40539.110

[GRAPHIC] [TIFF OMITTED] 40539.111

[GRAPHIC] [TIFF OMITTED] 40539.112

[GRAPHIC] [TIFF OMITTED] 40539.113

[GRAPHIC] [TIFF OMITTED] 40539.114

[GRAPHIC] [TIFF OMITTED] 40539.115

[GRAPHIC] [TIFF OMITTED] 40539.116

[GRAPHIC] [TIFF OMITTED] 40539.117

[GRAPHIC] [TIFF OMITTED] 40539.118

[GRAPHIC] [TIFF OMITTED] 40539.119

[GRAPHIC] [TIFF OMITTED] 40539.120

[GRAPHIC] [TIFF OMITTED] 40539.121

[GRAPHIC] [TIFF OMITTED] 40539.122

[GRAPHIC] [TIFF OMITTED] 40539.123

                                 <all>

</pre></body></html>
